                                                       NATIONAL SCIENCE FOUNDATION
                                                        OFFICE OF INSPECTOR GENERAL
                                                          OFFICE OF INVESTIGATIONS

                                                 CLOSEOUT MEMORANDUM

 Case Number: 1-03-05-0019
                                                                                      11           Page' I of I


         !

          This investigation was opened as a result of an e-mail that was sent to NSF informing NSF that
         tthe sender' of the e-mail had breached one of NSF's computer networks2. The sender of the e-
          mail also advised that slhe had downloaded everything that was on the network and was prepared
          to sell the information to others3 unless NSF paid them not to do so.

          IVSF OIG requested assistance from the FBI's Criminal Computer Intrusion Squad. The
          investigation resulted in the identification and arrest of an individual4 in Bucharest, Romania,
         I
         who confessed to sending the e-mail. The individual's trial has been pending since ~ u n d2003.

             'In light of the fact that the Romanian prosecutor's office can no longer locate the subject to stand
             'trial, no further investigative effort is necessary in this matter.

             Accordingly, this case is closed.                                                          I




NSF OIG Fonn 2 (1 1/02)
